NO. ________
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020

SHANNON D. HIXON,

PETITIONER,

V.
UNITED STATES OF AMERICA,

RESPONDENT.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner, Shannon D. Hixon, pursuant to Sup. Ct. R. 39.1
respectfully moves for leave to file the accompanying petition
for Writ of Certiorari in the Supreme Court of the United States
without payment of costs and to proceed in forma pauperis.
Mr. Hixon was previously found financially unable to obtain
counsel and the undersigned counsel was appointed as C.J.A.
counsel to represent him pursuant to 18 U.S.C. § 3006A.
Therefore, in reliance upon Rule 39.1 and § 3006A(d)(7),
petitioner has not attached the affidavit which would otherwise
be required by 28 U.S.C. § 1746. A copy of the undersigned’s
order of appointment in the United States District Court is
attached as Exhibit 1.
Respectfully submitted,
/s/Patrick F. Nash
PATRICK F. NASH

Nash Marshall PLLC
129 West Short Street
Lexington, Kentucky 40507
(859) 254-3232
COURT APPOINTED COUNSEL OF RECORD FOR
PETITIONER SHANNON D. HIXON

Exhibit 1

